HHS/OIG, Audit - "Review of Controls to Report Wage Data at Citrus
Memorial Hospital for the Period of October 1, 2002, Through September 30,
2003," (A-04-05-02003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Controls to Report Wage Data at Citrus
Memorial Hospital for the Period of
October 1, 2002, Through September 30, 2003," (A-04-05-02003)
April 21, 2006
Complete Text of Report is available in PDF format (1.64 mb). Copies can also be obtained by contacting the Office of Public Affairs at202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Citrus Memorial Hospital (the hospital) complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003 Medicare cost report.  The hospital did not fully comply with Medicare requirements for reporting wage data in its FY 2003 Medicare cost report.  The hospital overstated its wage data by $2,365,729 and 57,897 hours. We recommended that the hospital submit a revised FY 2003 Medicare cost report to the fiscal intermediary and implement review and reconciliation procedures to ensure that the wage data reported on future Medicare cost reports is accurate, supportable, and in compliance with Medicare requirements.  In written comments on the draft report, the hospital agreed with our findings and recommendations.